HHS/OIG, Audit - "Review of Cost Report Settlements by Mutual of Omaha (Mutual) for Medicare Inpatient Acute Care Providers Receiving Disproportionate Share (DSH) Payments," (A-07-01-00134)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Cost Report Settlements by Mutual of Omaha (Mutual) for Medicare
Inpatient Acute Care Providers Receiving Disproportionate Share (DSH) Payments,"
(A-07-01-00134)
July 24, 2002
Complete Text of Report is available in PDF format
(328 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Mutual,
at cost report settlement, had correctly calculated providers disproportionate
share hospital (DSH) payments.  We found that Mutual incorrectly calculated
DSH payments for two of 45 providers we reviewed, and made other minor settlement
errors for one of the two providers with a DSH payment error.  Consequently,
Mutual made a net Medicare underpayment of $2,345.  These payment problems
occurred because of insufficient supervisory review of cost report settlements.
We brought this to Mutuals attention.  They indicated the cost reports
would be reopened and adjusted.  We
recommend that the Centers for Medicare & Medicaid Services (CMS):
(i) monitor Mutuals reopening of the cost reports for the two providers with
settlement errors identified in our review; and, (ii) ensure that Mutual establishes
sufficient supervisory review procedures for cost report settlements.